Cardmember Agreement for U.S. Bank National Association American Express® No
Preset Spend Limit Accounts

This credit card program is issued and administered by U.S. Bank National Association. This information is accurate as of March 31, 2021.
PLEASE NOTE that this information is provided for general information purposes only and is not specific to your Account. See the Agreement
that was provided for your Account and Card for more detailed information, including contact information.
PRICING INFORMATION: Actual pricing will vary from one Cardmember to another
(APR = Annual Percentage Rate)
(DPR = Daily Periodic Rate)

Annual Percentage Rates for Purchases

10.74% to Prime + 21.24%
(APR) 13.99% to 24.49%
(DPR) 0.038329% to 0.067096%
Prime +

This APR will vary with the Market based on the
Prime Rate.

Annual Percentage Rates for Balance Transfers

Prime + 10.74% to Prime + 21.24%
This APR will vary with the Market based on the (APR) 13.99% to 24.49%
Prime Rate.
(DPR) 0.038329% to 0.067096%

Annual Percentage Rates for Cash Advances

Prime + 20.74% to + 22.74%
This APR will vary with the Market based on the (APR) 23.99% to 25.99%
Prime Rate.
(DPR) 0.065726% to 0.071205%
Penalty APR and When It Applies
There is no Penalty Rate for your Account.
Paying Interest

Minimum Interest Charge

For Credit Card Tips from the
Consumer Financial Protection Bureau
Set Up and Maintenance Fees

•
•

Annual Fee
Travel Fee

•

Balance Transf er Advance Fee

Transaction Fees
•
•
•

Your due date is 24-30 days after the close of each billing cycle.
We will not charge you interest on Purchases if you pay your
entire balance by the due date each month. We will begin
charging interest on Advances and Balance Transfers on the
transaction date.
If you are charged interest, then the Minimum Interest Charge
will be no less than $2.00.
To learn more about f actors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore.
NOTICE: Some of these set-up and maintenance f ees will be
assessed before you begin using your Card and based on your
Revolve Limit, your initial available credit will be less.
You may still reject this Account, provided that you have not yet
used it or paid a f ee after receiving a billing statement. If you do
reject the Account, you are not responsible f or any f ees or
charges.
$85
NONE

Either $5 or 3% of the Transfer or Advance amount, whichever
is greater (maximum fee (No Maximum)).
Convenience Check Advance Fee
Either $5 or 3% of the Advance amount, whichever is greater
(maximum fee (No Maximum)).
Financial Institution Cash Advance Fee Either $10 or 4% to 5% of the Advance amount, whichever is
greater (maximum fee (No Maximum)).
Cash Equivalent Advance Fee
Either $20 or 4% to 5% of the Advance amount, whichever is
greater (maximum fee (No Maximum)).

NONE

•

Cash Advance Overdraft Protection
Fee
Cash Advance ATM Fee

•

Foreign Transaction Fee

Either $10 or 4% to 5% of the Advance amount, whichever is
greater (maximum fee (No Maximum)).
NONE

•
•

Late Fee
Return Payment Fee

Up to $40
Up to $40

•

Account Fees

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See
the Agreement for more details.
P. O. Box 6352
Fargo, ND 58125

Cardmember Agreement
This is a cardmember agreement and disclosure statement (“Agreement”) between you
and the Issuer containing the terms that will apply to your Credit Card Account
(“Account”) effective March 31, 2021. American Express is a federally registered service
mark of American Express and is used by U.S. Bank National Association pursuant to a
license. In this Agreement, “you”, “your" and “Cardmember” means each individual
accepting a solicitation or applying for the Account or otherwise agreeing to be
responsible for the Account. “We”, “us”, “our”, and “the Issuer” means U.S. Bank
National Association, the issuer of the Card and your Account creditor. Please read this
Agreement carefully and keep it in a safe place to make the best use of the credit cards
we issue with this Account (“Card”). The Agreement becomes effective as soon as you
or someone authorized by you uses or activates the Card or Account. Even if the Card
or Account has not been used or activated, the Agreement becomes effective unless
you contact us within 30 days after you receive the Card by calling the number on the
back of the Card to cancel your Account. This web Agreement does not replace the
Agreement that is provided with the Account and Card.
This Agreement contains an arbitration provision (including a class action
arbitration waiver). It is important that you read the entire Arbitration Provision
section carefully.
ACCOUNT FEATURES AND YOUR USE OF THE ACCOUNT
1. Personal Use: You may use the Account only for personal, family or household
purposes. Federal or state consumer protection laws may not apply if you use the
Account for other than personal, family or household purposes.
2. Purchases: You may use the Account to buy, lease or otherwise obtain goods or
services from participating merchants (including transactions you initiate by mail,
telephone or over the Internet), or take advantage of special promotional Balance
Transfer offers that post as Purchase transactions (“Purchases”). We will, in connection
with any promotional offer we make from time to time, provide information on your Card
carrier or in additional materials (the “Offer Materials”) that explain whether those
transactions will post and be treated as a Purchase. Even if you have not signed a sales
draft or the merchant has not supplied you with a written receipt or other proof of sale,
you are responsible for all Purchases made through your Account, except as expressly
limited by applicable law (see Your Billing Rights section belo w for more details).
3. Advances: “Advances” are transactions other than Purchases that allow you direct
access to funds available through your Account. Advances may include Account
transactions such as cash advances you obtain directly from us, automated teller
machines (“ATMs”) or other participating financial institutions (“Cash Advances”). ATM
and financial institution Advances include phone (automated phone system and 24 Hour
customer service assisted) and Internet transfers. Advances also include some Balance
Transfers, Convenience Checks, FastCash, Overdraft Protection Advances and Cash
Equivalent Advances. “Cash Equivalent Advances” include transactions to acquire or
initiate wire transfers, traveler’s checks, cashier’s checks, money orders, foreign cash
transactions, casino gaming and betting transactions and lottery tickets. Monthly
Account statements we issue may refer to Advances as an Advance, Cash, Cash
Advances, or by the product or device you used to obtain an Advance. Refer to the
Account Fees section for details on Advance Transaction Fees. American Express

Cards are not presently accepted for the purchase of bets, lottery tickets (except where
allowed for on-site sales of state and national government lottery tickets at authorized
retailers) or casino gaming chips.
4. Advance Limits: Only a portion of the Revolve Limit (defined below) is available for
Advances and that portion may vary from time to time. Although you may have credit
available under your Account, we may be unable to authorize an Advance. You may
contact Cardmember Service to learn the portion of your Revolve Limit which is available
for Advances.
5. Convenience Checks: From time to time, we may supply Convenience Checks for
use by the person(s) or drawer named on those checks. “Convenience Checks” are
drafts that look like other checks, but are drawn on credit available in your Account.
Convenience Checks may not be offered for all Account types. We will, in connection
with any Convenience Check we provide, include Offer Materials that will explain
whether the Convenience Check will post and be treated as an Advance or as a Balance
Transfer. Convenience Checks must be written in U.S. Dollars. We may return a
Convenience Check unpaid if:
(a) the credit available under your Revolve Limit is less than the Convenience Check
amount;
(b) the Account is in Default; or
(c) the Convenience Check is improperly endorsed or otherwise fails to conform to our
regularly accepted standards for check payment.
Convenience Checks may not be used to pay your Account or any obligation you owe
us or our affiliates.
6. Paying and Stopping Payment on Convenience Checks: You must write to us or call
to request that payment be stopped on a Convenience Check. You must call us promptly
with an oral stop payment request and then provide us with a written confirmation of the
stop payment request within 14 calendar days. Any written stop payment request we
receive will remain in effect for 6 months, unless you renew the request in writing before
the end of that time. We may pay Convenience Checks more than 6 months old . There
may be circumstances under which a Convenience Check must be paid, even if we have
received a stop payment request from you. We will not be liable to you if we do not honor
your stop payment request under those circumstances. If it is determined that a
Convenience Check should have been paid, but was not, we will not be liable for any
consequential, punitive or incidental damages if we acted in good faith. Our only
obligation under those circumstances will be to pay the designated payee the amount
of the Convenience Check and cancel any charges assessed against your Account as
a result of any wrongful failure to honor the Convenience Check.
7. Balance Transfers: We may permit you to transfer balances and obligations that you
owe other companies or financial institutions to your Account, subject to the terms and
conditions disclosed in the Offer Materials (“Balance Transfers”). Balance Transfers wil
post to your Account and be separately reflected on monthly Account statements as a
Balance Transfer, or, depending upon the offer, may post to the Account and be treated
as a Purchase or an Advance. We will, in connection with any Balance Transfer offer
we make, provide you with materials that explain how the Balance Transfer will post to
your Account and be reflected on monthly Account statements. You may not request
Balance Transfers on existing obligations you owe us or our affiliates. If you request a
Balance Transfer that would cause your Account to exceed its Revolve Limit, we may,
at our option, (a) post the entire Balance Transfer requested to your Account; (b) post

only a portion of the Balance Transfer requested to your Account up to the amount of
credit available under the Revolve Limit; or (c) refuse to process the entire amount of
the Balance Transfer requested.
8. U.S. Bank Overdraft Protection: This section is part of the Agreement only if you have
specifically requested and have obtained an Overdraft Protection Plan by linking the
Account with a designated U.S. Bank personal checking account ("checking account").
An "Overdraft Protection Advance" is an advance of funds to your designated checking
account from this Account that will help cover overdrafts on your checking account. Any
Overdraft Protection Advance will post and be charged interest as an Advance drawn
on the Account. Please refer to the U.S. Bank Deposit Account Agreement (entitled,
"Your Deposit Account Agreement") for full Overdraft Protection Plan terms and the
Consumer Pricing Information Brochure for fees that apply for Overdraft Protection
Advances. We may cancel Overdraft Protection privileges under the Account, even if
the Account remains open for other purposes.
INTEREST CHARGES AND ACCOUNT FEES
9. Account INTEREST CHARGES: INTEREST CHARGES reflect the cost of credit.
Your total INTEREST CHARGE for any billing cycle will equal the amount of any (a)
periodic rate INTEREST CHARGES (sometimes referred to as "interest" in this
Agreement and on monthly Account statements); (b) Advance Transaction Fees; and
(c) any other transaction fees that are considered INTEREST CHARGES.
10. Interest Rate: In this Agreement, we have abbreviated the terms “daily periodic
rate” as DPR, “average daily balance” as ADB, and “ANNUAL PERCENTAGE RATE”
as APR.
(a) Standard Interest RatesRate for "Purchases" and "Balance Transfers": The DPR for transactions posting as
Purchases and Balance Transfers is equal to 1/365th of its corresponding APR. Rate
for "Advances": The DPR and corresponding APR for transactions posting to the
Account as Advances is equal to 1/365th of its corresponding APR.
(b) Variable APRs are calculated by adding a margin to the Index. Your Variable DPR
is equal to 1/365th of the corresponding APR. Your DPR and corresponding APR may
increase or decrease from time to time according to the movements up or down of the
Index, which is the Prime Rate published in the "Money Rates" section of the Midwest
Edition of The Wall Street Journal on the last publication day before the date on which
the billing cycle closed (in other words, the "statement date"). We reserve the right to
choose a comparable new index if The Wall Street Journal ceases to publish a Prime
Rate. The margin is the percentage we add to the Index to calculate the APR. The
current applied Index value for your Account is 3.25%. Any variable rate adjustment
based on a change to your margin will be effective as of the first day of the current billing
cycle, and will apply to all new Account balances and transactions subject to that
variable rate. Any variable rate adjustment based on a change to your Index will be
effective as of the first day of the current billing cycle, and will apply to all new and
outstanding Account balances and transactions subject to that variable rate. An increase
or decrease to the Index or margin will apply to Purchase, Advance, and Balance
Transfer balances and will result in an in crease or decrease in the INTEREST CHARGE
on the Account, an increase or decrease to your Minimum Payment, and an increase or
decrease to your New Balance.
Introductory and Promotional Rates: We may, at our option, offer you for a limited
time introductory or promotional interest rates for all or part of new Purchase, Advance,
or Balance Transfers posted to your Account. We will tell you in the Offer Materials the
introductory or promotional rate and the period of time during which that rate will be in
effect and any conditions or requirements of the offer. Unless the Offer Materials state
otherwise, an introductory or promotional rate will remain in effect until the last day of
the billing cycle in which the introductory or promotional rate expires. Any introductory
or promotional rate that applies to new or outstanding Account bala nces will increase to
the standard rate that would otherwise apply, or, when appropriate under the terms of
this Agreement, a Penalty Rate due to an Adjustment Event (as indicated above).
11. INTEREST CHARGE; Method of Computing Balance Subject to Interest Rate: We
calculate the periodic rate or interest portion of the INTEREST CHARGE by multiplying
the applicable DPR by the ADB (including new transactions) of the Purchase, Advance
and Balance Transfer categorie s subject to interest, and then adding together the
resulting interest from each category. We determine the ADB separately for the
Purchases, Advances and Balance Transfer categories. To get the ADB in each
category, we add together the daily balances in those categories for the billing cycle and
divide the result by the number of days in the billing cycle. We determine the daily
balances each day by taking the beginning balance of those Account categories

(including any billed but unpaid interest, fees, credit insurance and other charges),
adding any new interest, fees, and charges, and subtracting any payments or credits
applied against your Account balances that day. We add a Purchase, Advance or
Balance Transfer to the appropriate balances for those categories on the later of the
transaction date or the first day of the statement period. Billed but unpaid interest on
Purchases, Advances and Balance Transfers is added to the appropriate balances for
those categories each month on the statement date. Billed but unpaid Advance
Transaction Fees are added to the Advance balance of your Account on the date they
are charged to your Account. Any billed but unpaid fees on Purchases, credit insurance
charges, and other charges are added to the Purchase balance of the Account on the
date they are charged to the Account. Billed but unpaid fees on Balance Transfers are
added to the Balance Transfer balance of the Account on the date they are charged to
the Account. In other words, billed and unpaid interest, fees, and charges will be
included in the ADB of your Account that accrues interest and will reduce the amount of
credit available to you. To the extent credit insurance charges, overlimit fees, Annual
Fees, and/or Travel Membership Fees may be applied to your Account, such charges
and/or fees are not included in the ADB calculation for Purchases until the first day of
the billing cycle following the date the credit insurance charges, overlimit fees, Annual
Fees, and/or Travel Membership Fees (as applicable) are charged to the Account. Prior
statement balances subject to an interest-free perio d that have been paid on or before
the payment due date in the current billing cycle are not included in the ADB calculation.
There is a minimum INTEREST CHARGE Fee in any billing cycle in which an
INTEREST CHARGE is due. As described above, this Agreement provides for the
compounding of interest on your Account.
12. Paying Interest: You have a 24 to 30 day interest-free period for Purchases provided
you have paid your previous balance in full by the Payment Due Date shown on your
monthly Account statement. In order to avoid additional INTEREST CHARGES on
Purchases, you must pay your new balance in full by the Payment Due Date shown on
the front of your monthly Account statement. There is no interest-free period for
transactions that post to the Account as Advances or Balance Transfers except as
provided in any Offer Materials. Those transactions are subject to interest from the date
they post to the Account until the date they are paid in full.
13. Advance Account Fees: You agree to pay the following Account fees and INTEREST
CHARGES:
(a) We may add an Advance Transaction Fee INTEREST CHARGE to the
Advance balance of the Account for each Advance you obtain during a billing
cycle in addition to the interest that accrues on Advances. The Advance
Transaction Fee imposed will equal the greater of either a percentage of each
Advance or the minimum dollar amount, subject to the maximum dollar amount.
(b) We may add a Balance Transfer Fee INTEREST CHARGE to the Purchase
balance of the Account except where Offer Materials specify otherwise.
(c) We may add a Convenience Check Fee INTEREST CHARGE to the
Advance balance of your Account except where Offer Materials specify otherwise.
(d) We may add an Overdraft Fee INTEREST CHARGE to the Advance
balance of your Account, except where Offer Materials specify otherwise.
14. Account Fees:
(a) We may add a Promotional Discount Transaction Fee INTEREST CHARGE
for each Promotional Discount you receive during the billing cycle, as outlined in
any Offer Materials
(b) Annual Membership Fee. Each year, the Account may be subject to your
payment in advance of an Annual Membership Fee INTEREST CHARGE which
will compensate us for maintaining and servicing the Account for the following
year. This fee will be charged to the Purchase balance of your Account.
(c) We will add a Late Payment Fee to the Purchase balance of the Account if
your Minimum Payment is not received by the Payment Due Date shown on the
monthly Account statement.
(d) There is no Overlimit Fee on your Account.
(e) We may add a Returned Payment Fee to the Purchase balance of the Account
if any payment on the Account is not honored or if we must return it to you because
it cannot be processed. A check that is returned unpaid will be sent for colle ction.
(f) We will add a Duplicate Documentation Fee to the Purchase balance of the
Account for each copy of a monthly statement, sales slip, refund slip, or Advance
slip that you request. There will be no charge for documentation requests made
in connection with a billing error notice, if our investigation indicates a billing error
occurred.
(g) We may add a service charge to the Purchase balance of the Account if you
call us to make a payment on your Account and are assisted by a Cardmember

Service Representative to make the payment. You will be provided with
confirmation of the service charge before the payment transaction is authorized.
(h) We may add a Stop Payment Check Fee to the Purchase balance of your
Account if you request a stop payment on a Convenience Check. (See "Paying
and Stopping Payment on Convenie nce Checks" section above for more details.)
In no circumstance will your Late Fee or Returned Payment Fee ever be greater
than your Minimum Payment due.
IMPORTANT INFORMATION ABOUT USING YOUR ACCOUNT
15. BalanceShield or Insurance Charges: Your purchase of BalanceShield debt
cancellation or credit life insurance and disability is optional. Whether or not you
purchase BalanceShield or credit insurance will not affect your application for credit or
the terms of any existing credit agreement you have with us. If you elect to purchase
BalanceShield or credit insurance and are eligib le to participate, the monthly program
fee or premium (at the rate disclosed to you) will be added to the Purchase balance as
of the closing date of each billing cycle based upon the Account balance (including
accrued INTEREST CHARGES). The terms of your BalanceShield coverage will be
summarized in the BalanceShield Debt Cancellation Program Agreement, which will be
provided to you upon enrollment. For credit insurance, the terms of your insurance
coverage will be summarized in the Certificate of Insurance, which will be provided to
you.
16. Credit Limit: There is no predetermined Credit Limit for your Account. Individual
transactions are authorized based on factors such as Account history, credit record, and
payment resources.
a. Revolve Limit: Your Revolve Limit (for Purchases, Advances and Balance Transfers)
is the total dollars available to you to carry over, less the minimum monthly payment
from billing cycle to billing cycle as a revolving line of credit. Your initial Revolve Limit
is shown on the Card carrier. We reserve the right to periodically re-evaluate your
Account and increase or decrease your Revolve Limit.
b. Extraordinary Purchases: If you are planning an out-of-pattern transaction or large
ticket Purchase, you must inform us of the Purchase at least 2 busin ess days prior, and
no more than 60 days prior to the event via telephone.
17. Payment: You must pay us in U.S. Dollars with checks or similar payment
instruments drawn on a financial institution located in the United States. We will also
accept payment in U.S. Dollars via the Internet or phone or previously established
automatic payment transaction. We may, at our option, choose to accept a payment
drawn on a foreign financial institution. However, you will be charged and agree to pay
any collection fees required in connection with such a transaction. The date you mail a
payment is different than the date we receive that payment. For purposes of this
Agreement, the payment date is the day we receive your check or money order at the
address specified on your monthly Account statement or the day we receive your
electronic or phone payment. If you mail your payment without a payment coupon or to
an incorrect address, it may result in a delayed credit to your Account, additional
INTEREST CHARGES, fees, and possible suspension of your Account.
18. Minimum Payment: Each month, you must pay at least the Minimum Payment and
any past due Minimum Payment(s) by the Payment Due Date shown on your monthly
Account statement. You may, at your option, pay more than the Minimum Payment or
pay the New Balance (as stated on your monthly Account statement) in full to reduce or
avoid the INTEREST CHARGE for the Account. Your Minimum Payment will be
calculated as follows: first we determine the "Base Minimum Payment", which is the
greater of $30.00 or 1.00% of your New Balance up to the Revolve Limit not including
items (1) and (2) below, which, if not a whole dollar amount, will be rounded to the next
highest dollar. To the Base Minimum Payment, we may add one or more of the following
items, as incurred on your Account: (1) any late, annualand/orany other Account related
fee, (2) the INTEREST CHARGE, and (3) if your Account is over the Revolve Limit,
some or all of the balance amount over your Revolve Limit. If the resulting Minimum
Payment is greater than $30.00, the total, if not a whole dollar amount, is then rounded
to the next highest dollar not to exceed your New Balance. Any Minimum Payment or
additional amount you pay each month will not prepay any future Minimum Payments
required, or change your obligation to make at least a Minimum Payment by the
Payment Due Date. Any statement credit that results from a promotional offer or
rewards redemption, if applicable, will only be applied to the Account balance and not
satisfy any portion of the Minimum Payment requirements for this Account.
19. Payment Application: If we cannot collect on your check or other payment item you
send us to pay on your Account, we may post as an Advance transaction an amount
equal to the credit previously given to you for such check or payment item and we may

charge interest on this amount from the date your Account originally was credited for the
payment. After a payment has been made, we reserve the right to withhold available
credit in the amount of the payment for 7 business days. Any credit availa ble before the
payment is made will continue to be available for use during this time.
20. Skip Payment Option: We may, at our option, occasionally offer you an opportunity
to skip your obligation to make the Minimum Payment due. You may not skip payments
unless we make this offer to you. If we offer you an opportunity to skip a payment more
than once in a 12 month period, you will not be permitted to skip payments required in
consecutive months. You cannot accept a skip payment offer if your Account is
delinquent, or is in Default. When you take advantage of a skip payment offer, the
interest will continue to accrue on the entire unpaid balance of your Account.
21. Change of Address: Your monthly Account statements and notices about your
Account will be sent to the address you provided in your application or your response to
our Account solicitation. To change your address, you must call us or write to us. We
must receive this information 21 days before the date a billing cycle closes to provide
your monthly Account statement at your new address. If you have an address change
within 45 days of the expiration date of your Card(s), please contact Cardmember
Service with your new address so your new Card(s) can be mailed to your new address.
We may also update your address in ourrecords without a request from you if we receive
an address change notice from the U.S. Postal Service or if we receive updated address
information from our mail services vendor.
22. Authorized Users: You agree not to allow access to your Card, Account number,
Convenience Checks, or personal identification number (PIN) to anyone else to use your
Account, except by asking us to issue a card to grant Account access to another person.
If you allow access to your Card or Account information, you will be liable for any charges
made by that person, unless and except as expressly required by applicable law. You
agree to be responsible for all Account transactions made by a Cardmember, or anyone
who you have authorized by (a) asking us to issue a Card to grant Account access to
another person; (b) lending your Card to or allowing Account access by another person;
or (c) any other way in which you would be legally considered to have allowed another
person to use your Account or to be legally prevented from denying that you did so. Be
cautious when allowing another person to become an authorized user of your Account;
once you allow authority to any authorized user you cannot limit that authority unless
the Account is closed to future transactions. You, as a primary or joint Cardmember
must call or write us with any request to cancel and remove a person’s authority. We wil
not provide any Account information to anyone other than you and any Authorized
Users. Authorized Users have no right to make any Account changes.
23. Lost or Stolen Card or Other Information: You must notify us immediately by
telephone or in writing if your Card, Convenie nce Checks, or PIN is lost or stolen or there
is possible unauthorized use of your Card, Account, or PIN. You will not be liable for
unauthorized use of your Account. If this happens, we will ask you and all other persons
given Account access to return all Cards and unused Convenience Checks to us. In
addition, we have the right to close your Account and open a new Account. If we do so,
new Cards will be issued. If requested, we may issue a new PIN and new Convenience
Checks for your new Account.
24. Using Your Card for International Transactions:
You may use your Card for Purchases at foreign merchants and for cash withdrawals
from foreign ATMs that display the American Express logo. (To find your nearest ATM
please visit www.americanexpress.com/atmlocator.) If you make a charge or cash
withdrawal in a foreign currency, American Express will convert it into U.S. Dollars on
the date that American Express or American Express’ agents process it, which may be
different than the date of the transaction. Unless a particular rate is required by law, the
rate American Express uses to convert transactions in foreign currencies to U.S. Dollars
is no more than the highest official rate published by a government agency or the highest
interbank rate from customary banking sources on the conversion date or the prior
business day. This rate may differ from the rates that are in effect on the date of your
charge or withdrawal. Charges that are converted directly by a merchant (such as
airlines) will be at the rates they use. Whether your foreign Purchase or ATM transaction
is in U.S. Dollars or a foreign currency, we do not charge a Foreign Transaction Fee
INTEREST CHARGE.
YOUR LEGAL RESPONSIBILITY IN THIS AGREEMENT
25. Responsibility to Pay: You agree to pay us for all Purchases, Advances, Balance
Transfers, INTEREST CHARGES, Account Fees and charges, any other transaction
charges as provided in this Agreement and, to the extent permitted under applicable
law, attorneys fees and collection costs we incur enforcing this Agreement against you.

This is the case even if your Account is only used by one of you, or is used by someone
authorized by only one of you. If there is more than one Cardmember, each of you is
responsible, together and separately, for the full amount owed on your Account. Your
obligation to pay the Account balance continues even though an agreement, divorce
decree, court judgment, or other document to which we are not a party may direct
another person responsible to pay the Account.
26. Intent to Repay: Every time you use your Account, you represent to us that you
intend to and have the ability to repay your Account obligations. We rely on this
representation every time you use your Account.
27. Settling a Disputed Balance; Payment in Full: If you want to settle a disagreement
with us about any amount you owe by sending a check on which you have written
"Payment in Full" or similar language, you must send us a written explanation of the
disagreement or dispute and any such check to Cardmember Service. (See Your Billing
Rights section below for complete details.) This address is different than the address
you use to make Account payments. Writing “Payment in Full” or similar language on
the check will not be enough to resolve the dispute. If we collect a check or any payment
instrument marked “Payment in Full” that you sent to an address other than the one
provided in this section (such as the address at which you normally make payments),
we will not have waived our right to collect any remaining amount you owe us underthe
terms of your Account.
28. Default: You and your Account will be in Default if:
(a) we do not receive the Minimum Payment by the Payment Due Date disclosed
on the monthly Account statement;
(b) you violate any other provision of this Agreement;
(c) you die without a surviving joint Cardmember;
(d) you become insolvent, assign any property to your creditors, or go into
bankruptcy or receivership;
(e) you have made false statements on your Account application or in the
maintenance of your Account;
(f) we have any reason to believe that your Account is in danger of, or is being
used for fraud;
(g) you are a married community property state resident and you or we receive a
written termination notice of this Agreement from your spouse;
(h) your Account becomes inactive;
(i) anything happens that we believe in good faith materially increases the risk that
you will not live up to your payment and other obligations under this Agreement;
or
(j) this is a joint Account and one of you notifies us that he or she wants the
Account closed or will no longer be liable on the Account.
You and your Account may also be in Default if you make transactions which go over
your Revolve Limit.
29. Illegal Purchases: You agree that you will not use or permit an Authorized User to
use the Card or Account for any unlawful purpose, such as funding any account that is
set up to facilitate online gamblin g.
OUR LEGAL RIGHT TO CHANGE OR CANCEL THIS AGREEMENT
30. Ownership of this Account: Your Card and any other Account access devices that
we supply to you are our property and must be immedia tely returned to us or our
designated agent or otherwise destroyed or surrendered as we instruct.
31. Changes to your Account: Account and Agreement terms are not guaranteed for any
period of time; we may change the terms of your Agreement, including APRs and fees,
in accordance with applicable law and the terms of your Agreement. Your transactional
experience with us may also cause a change, including an increase in the margin that
is added to the Index, an increase in fees, or a decrease in the Revolve Limit. Factors
considered in determining the increased rate or Revolve Limit decrease may include
your general credit profile, existence, seriousness and timing of the defaults underany
agreement that you have with us, and other indications of the Account usage and
performance. We will give you notice of any such change in the manner required by law.
Revised Account terms apply as of the effective date communicated in our notice to you
unless the notice provides you with the right to opt out, and you do opt out, before the
effective date. .
32. Cancellation of Your Account: We may cancel your Account or suspend your ability
to obtain Account credit immedia tely, without notice, if your Account is in Default. Even
if you are not in Default, we may cancel your Account by providing notice to you. You
may cancel your Account by notifying us by telephone or in writing. If this is a joint

Account, we will honor a request by either of you to cancel the Account. After the
Account is cancelled, you will not be able to obtain additional Account credit, except
that, (a) the Account may continue to receive recurring charges for items and services
until you contact and cancel delivery with the company providing the item or service, or
(b) under certain circumstances if you use your Account for a transaction, the transaction
may be posted to your Account. After your Account is cancelled, all amounts
outstanding on your Account will be due and payable without notice or demand from us.
You must cut all Cards and Convenience Checks in half and return them to us. If you
do not pay the amount you owe under this Agreement, you will be lia ble for our collection
costs including our reasonable attorney fees and expenses of legal actions, to the extent
permitted by applicable law.
33. Assignment of Your Account to Another Creditor: We may assign, sell or transfer
your Account and amounts owed by you to another creditor at any time. If we do, this
Agreement will still be in effect unless and until amended, and any references made in
this Agreement to “we”, “us”, or “our” will refer to the creditor to which we assigned, sold
or transferred your Account or amounts owed under your Account. You may not delegate
your obligations and responsibilities to us to any third party without our express written
consent.
THE ISSUER’S LEGAL RIGHTS AND OBLIGATIONS
34. Collecting Credit Information about You: You authorize us to make any credit,
employment and investigative inquiries we feel are appropriate related to giving you
credit or collecting amounts owed on your Account. You agree that a consumer credit
report may be requested periodically from one or more consumer reporting agencies
(“Credit Bureaus”) and used in connection with your application and any update, renewal
or extension of credit. We will provide information about you, your Account or your credit
history to Credit Bureaus and others who may properly receive that information.
35. Credit Bureau Disputes: If you believe we inaccurately reported credit history
information about you or your Account to a Credit Bureau, write to the Consumer
Recovery Department, Attn.: CBR Disputes, P.O. Box 108, St. Louis, MO 63166-9801.
36. Privacy Pledge and Disclosure of Account Information: A copy of our Privacy Pledge
was included with your original Agreement. We also keep copies of our Privacy Pledge
in financial institution offices and post it on our web site. Our Privacy Ple dge describes
how we collect, protect and use confidential financial and other information about you
and the circumstances in which we might share information about you with members of
our corporate family and with unaffiliated third parties. Our Privacy Pledge also tells you
how you can (a) limit the ways we share certain kinds of information about you and (b)
request corrections to the information we maintain about you.
37. Refusal to Honor Transactions: We and our agents are not responsible if anyone
refuses to honor your Card or a Convenience Check, or if authorization for a particular
transaction is not given. Although you may have credit available under your Account,
we may be unable to authorize credit for a particular transaction. The number of
transactions you make in one day may be limited, and the limit per day may vary. These
restrictions are for security reasons and as a result we cannot explain the details of how
this system works. If your Account is over the Revolve Limit or delinquent, authorization
of credit for transactions may be declined. We are not responsible for anything
purchased with your Card or a Convenience Check, except as expressly required by
applicable law (see Your Billing Rights section below for more details). You must return
goods you purchased with the Card or Account to the merchant and not to us.
38. Third Party Offers: From time to time, third parties may provide you with benefits not
related to the extension of Account credit. We are not liable for these features, services
and enhancements, as they are the sole responsibility of the third party provider. We
and/or a third party may add, change or delete entirely these benefits without notice or
liability to you, to the extent permitted by applicable law. You agree to hold us harmless
from any claims, actions or damages resulting from your use of any of these features,
services or enhancements, where permitted by applicable law.
39. Monitoring and Recording Communications: You understand and agree that we, and
anyone acting on our behalf, may monitor and/or record any communications between
you, or anyone acting on your behalf, and us, or anyone acting on our behalf, for quality
control and other purposes. You also understand and agree that this monitoring or
recording may be done without any further notice to you or anyone acting on your behalf.
The communications that may be monitored or recorded include telephone calls, cellular
or mobile phone calls, and any other communications in any form.

40. Severability: If a court of competent jurisdiction finds any part of this Agreement
illegal or unenforceable, the remain ing portions of the Agreement will remain in effect as
written after any such illegal or unenforceable portion is amended in conformance with
applicable law or, if necessary, voided.
41. Entire Agreement: This version of the web Agreement replaces any previous
versions of the web Agreement. The Agreement, as modified by any change in terms
we may deliver from time to time in accordance with applicable law, constitutes the entire
agreement between you and us, and supersedes any prior negotiation, agreement, or
understanding between you and us concerning the subject matter of the Agreement.
42. Waiver: We do not give up our rights under the Agreement or applicable law when
we fail to exercise or delay exercising those rights. Our failure or dela y to exercise any
right or remedy we have against you does not mean that we waive that right.
43. Arbitration Provision:
(a) You agree that either you or we can choose to have binding arbitration resolve
any claim, dispute or controversy between you and us that arises from or relates
to this Agreement or the Account and credit issued thereunder (individually and
collectively, a "Claim"). This does not apply to any Claim in which the relief
sought is within the jurisdictional limits of, and is filed in, a small claims court. If
arbitration is chosen by any party, the following will apply:
(1) NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE A CLAIM
IN COURT OR TO HAVE A JURY TRIAL ON A CLAIM, OR TO ENGAGE IN
PRE-ARBITRATION DISCOVERY, EXCEPT AS PROVIDED FOR IN THE
APPLICABLE ARBITRATION RULES.
(2) Arbitration will only decide our or your Claim, and you may not
consolidate or join the claims of other persons who may have similar
claims. YOU WILL NOT HAVE THE RIGHT TO PARTICIPATE AS A
REPRESENTATIVE OR MEMBER OF ANY CLASS OF CLAIMANTS, OR AS A
PRIVATE ATTORNEY GENERAL, PERTAINING TO ANY CLAIM SUBJECT TO
ARBITRATION.
(3) The arbitration will be performed in accordance with this Arbitration
Provision and the rules of the chosen arbitrator in effect when the Claim is
filed.
(4) The arbitrator’s decision will generally be final and binding, except for
the limited right of appeal provided by the Federal Arbitration Act.
(5) Other rights that you would have if you went to court might also not be
available in arbitration.
(b) The party commencing the arbitration may select to use either JAMS or the
American Arbitration Association ("AAA") (or, if neither of these arbitration
organizations will serve, then a comparable substitute arbitration organization
agreed upon by the parties or, if the parties cannot agree, chosen by a court of
competent jurisdiction). If JAMS is selected, the arbitration will be handled
according to its Streamlined Arbitration Rules unless the Claim is for $250,000 or
more, in which case its Comprehensive Arbitration Rules shall apply. If the AAA
is selected, the arbitration will be handled according to its Commercial Arbitration
Rules. You may obtain rules and forms for JAMS by contacting JAMS at 1-800352-5267 or www.jamsadr.com and for the AAA by contacting the AAA at 1-800778-7879 or www.adr.org. Any arbitration hearing that you attend will take place
in the federal judicial district where you reside. At your request, we will advance
your filing and hearing fees for any Claim you may file against us. If you prevail
on your Claim, we will pay your arbitration costs and fees, other than attorney,
expert and witness fees and expenses. We will also pay any fees or expenses
that applicable law requires us to pay. The arbitrator shall apply applicable
substantive law consistent with the Federal Arbitration Act, 9 U.S.C. §§ 1 through
16, including but not limited to applicable statutes of limitation, and shall honor
claims of privilege recognized at law. Judgment upon the award rendered by the
arbitrator may be entered in any court having jurisdiction.
(c) This Arbitration Provision shall survive repayment of your extension of credit
and termination of your Account. This Arbitration Provision shall be governed by
federal law, including the Federal Arbitration Act, and by Ohio law, without regard
to its internal conflict of law principles, to the extent such state law does not
conflict with federal law or this Arbitration Provision. This Arbitration Provision
shall not apply to a party who is a covered borrower under the Military Lending
Act. Notwithstanding any language of this Agreement to the contrary, should any
portion of this Arbitration Provision be held invalid or unenforceable by a court
or other body of competent jurisdiction, this entire Arbitration Provision shall be
automatically terminated and all other provisions of this Agreement shall remain
in full force and effect.

Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a
credit card account). For a verbal transcript of this disclosure, please call 1-877-2921682.
YOUR BILLING RIGHTS
Keep this document for future use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement:
If you think there is an error on your statement, call or write to us.
In your letter or call, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
What Will Happen After We Receive Your Letter or Call:
When we receive your letter or call, we must do two things:
1.
Within 30 days of receiving your letter or call, we must tell you that we received
your letter or call. We will also tell you if we have already corrected the error.
2.
Within 90 days of receiving your letter or call, we must either correct the error or
explain to you why we believe the bill is correct. While we investigate whether or
not there has been an error:
•
We cannot try to collect the amount in question, or report you as delinquent
on that amount.
•
The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
•
We can apply any unpaid amount against your Revolve Limit.
After We Finish Our Investigation, One of Two Things Will Happen:
•
If we made a mistake, you will not have to pay the amount in question or any
interest or other fees related to that amount.
•
If we do not believe there was a mistake, you will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe. If you receive our
explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases:
If you are dissatisfied with the goods or services that you have purchased with your
Card, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase. To use this
right, all of the following must be true:
1.
The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)

2.
3.

You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card Account
do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing. While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you as
delinquent.

SPECIAL RULES FOR CREDIT CARD PURCHASES DO NOT APPLY TO
PURCHASES MADE WITH CONVENIENCE CHECKS OR BALANCE TRANSFER
CHECKS.
13_USB AMEX

NO_PRESET_SPEND_LIMIT

